U.S. Department of Labor                          Office of Inspector General
                                                  200 Constitution Avenue, N.W.
                                                  Room S5022 - Audit
                                                  Washington, D.C. 20210


 September 24, 1999


 MEMORANDUM FOR:                   RAYMOND BRAMUCCI
                                   Assistant Secretary for
                                    Employment and Training


 FROM:                             JOHN J. GETEK
                                   Assistant Inspector General
                                    for Audit

 SUBJECT:                          Consultation Report No. 20-99-006-03-390
                                   Impact of Workforce Investment Act Administrative Cost Limitations on
                                   JTPA Recipients

 Pursuant to the Memorandum of Understanding (MOU) dated June 4, 1999, between ETA and OIG, the
 OIG engaged the CPA firm of Carmichael, Brasher, Tuvell and Savage to apply agreed-upon procedures
 in evaluating the potential impact of the Workforce Investment Act’s (WIA’s) administrative cost provisions
 on entities currently operating under the Job Training Partnership Act (JTPA). ETA selected 13 JTPA
 recipients, representing 10 service delivery areas and 3 Section 401 Native American grantees, from a pool
 of entities that volunteered for the survey. In accordance with the MOU, the OIG monitored the task
 order, performed quality control procedures and provided assistance as necessary to assure the quality of
 the work performed. Two copies, one bound and one unbound, of the independent accountants’ report
 are attached.

 Briefly, notwithstanding the unknown effect of WIA requirements (including designation of local areas,
 establishment of a one-stop delivery system and other provisions) on program operators’ administrative
 costs, the survey found that:

 1.      Only two of the SDAs, as currently configured and operating under JTPA, would be in compliance
         with the WIA administrative cost limitation (10 percent of allocation), even after the cost
         classification requirements and definitions contained in the WIA interim final rule were applied.

 2.      Application of the WIA interim final rule cost classification requirements and definitions had a
         negligible effect on the classification of administrative versus program costs for the surveyed entities.
                                                    -2-


3.      For the majority of the surveyed entities, program officials stated they intended to seek a waiver
        of the WIA statutory administrative cost limitation.

4.      Similarly, a majority stated they intended to change their mode of operations in order to comply
        with the statutory cost limitation.

From the OIG’s perspective, these final two points raise concerns about possible unintended consequences
of the WIA administrative cost limitation. First, ETA may find itself inundated with requests from local
areas for waivers of the statutory 10 percent limitation. Efforts to treat all such requests equitably could
potentially result in a majority of local areas operating under waivers, in which case “the exception”
(waivers) would effectively become more common than “the rule” (the 10 percent limit).

Second, while none of the program officials in the survey indicated they intended to change how they
contract in order to comply with the administrative cost limitation, we believe there is a risk that the WIA
administrative funding and definitions may affect how local areas deliver services. The dramatic shift in the
early 1980s from cost reimbursement to fixed unit price, performance-based contracting comes to mind
as an example of the system reacting to a reduction in administrative costs.

Specifically, the early years of JTPA saw a move to fixed unit price, performance-based contracting in
response to: (1) the reduction in the administrative cost limit from 20 percent under the Comprehensive
Employment and Training Act to 15 percent under the original 1982 JTPA statute, and (2) the rule, at 20
CFR 629.38(e)(2), that permitted certain fixed unit price contracts to be single unit charged entirely to
training. Later, the 1992 JTPA Amendments raised the administrative cost limit to 20 percent and placed
further restrictions on single unit charging of fixed unit price contracts.

To assist ETA in developing the final rule on administrative costs, the independent accountants’ report
details suggestions and comments made by grantee officials with respect to the WIA administrative cost
limitations and definitions.

Please call me at 219-8404 if you have any questions or wish to arrange a briefing on the survey results.


Attachments
INDEPENDENT ACCOUNTANTS’ AGREED-UPON PROCEDURES
                    REPORT

      IMPACT OF WORKFORCE INVESTMENT ACT
        ADMINISTRATIVE COST LIMITATIONS
               ON JTPA RECIPIENTS
                                                           Table of Contents


                                                                                                                                         Page

Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

Independent Accountants’ Report on
   Applying Agreed-Upon Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Agreed-Upon Procedures and Results

     Objective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

     Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

     Survey Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     Procedures Performed and Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

Appendix 1 - List of Grantees Surveyed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

Appendix 2 - Detail Analysis of Results of Survey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Appendix 3 - Detail of Grantees’ Comments/Suggestions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                                   ACRONYMS




ETA     Employment and Training Administration

JTPA    Job Training Partnership Act

HHS     Department of Health and Human Services

HUD     Department of Housing and Urban Development

INA     Indian and Native American

MIS     Management Information System

PIC     Private Industry Council

SDA     Service Delivery Area

USDOL   United States Department of Labor

WIA     Workforce Investment Act




                                            i
                         INDEPENDENT ACCOUNTANTS’ REPORT
                        ON APPLYING AGREED-UPON PROCEDURES

Employment and Training Administration
U.S. Department of Labor and
Other Specified User Agencies:

We have performed the procedures described in the Agreed-Upon Procedures and Results section of this
report, which were agreed to by the Employment and Training Administration of the U.S. Department of
Labor (USDOL) solely to assist in evaluating the potential impact of the Workforce Investment Act’s
administrative cost limitation on selected SDA and INA grantees (prepared in accordance with the criteria
specified therein).

This engagement to apply agreed-upon procedures was performed in accordance with standards
established by the American Institute of Certified Public Accountants and Government Auditing
Standards, issued by the Comptroller General of the United States.

The sufficiency of these procedures is solely the responsibility of the specified users of the report.
Consequently, we make no representations regarding the sufficiency of the procedures described later in
this report either for the purpose for which this report has been requested or for any other purpose.

We were not engaged to, and did not perform an audit, the objective of which would be the expression of
an opinion on the potential impact of the Workforce Investment Act’s administrative cost limitation on
selected SDA and INA grantees. Accordingly, we do not express such an opinion. Had we performed
additional procedures, other matters might have come to our attention that would have been reported to
you.

This report should not be used by those who have not agreed to the procedures and taken responsibility
for the sufficiency of the procedures for their purpose thereof. This report is intended solely for the
information and use of the U.S. Department of Labor and is not intended to be and should not be used by
anyone other than these specified parties. However, this report is a matter of public record and its
distribution is not limited.

CARMICHAEL, BRASHER, TUVELL & SAVAGE


Atlanta, Georgia
September 2, 1999

                                                   2
                                       EXECUTIVE SUMMARY


The Workforce Investment Act (WIA) program will supersede the Job Training Partnership Act (JTPA)
and become effective July 1, 2000. Several features of WIA, including establishment of one-stop centers,
designation of local areas, and certain program requirements will have an unknown impact on the
administrative cost experience of program operators.

The administrative cost limitation for local areas under WIA is 10 percent, which is a significant reduction
from similar JTPA programs which were allowed to operate at 20 percent. The WIA administrative cost
limitation for Indian and Native American (INA) grantees will be established by grant agreement. Under
JTPA, INA grantees were limited to 20 percent.

Concerned about the Service Delivery Area (SDA) and INA grantees’ future implementation and
compliance with the WIA program, the Employment and Training Administration (ETA) asked for SDA
volunteers to undergo a survey. The purpose of the survey was to determine what administrative costs
would have been for a particular JTPA program, if the program were operated under the WIA regulations.

ETA selected program year 19971 for the survey and JTPA Title IIA, Adult Training, and Title IV-A,
Section 401, Native American Programs, for the representative programs.

What We Did

We surveyed thirteen grantees (as listed in Appendix 1), representing ten SDAs and three INA grantees,
to reclassify JTPA 1997 program year (July 1, 1997 - June 30, 1998) costs using the WIA administrative
cost definition. This report will present the reclassified administrative costs in two ways: (1) as a percent
of the grantees’ allocation, since both JTPA and WIA express the administrative cost limitation in terms
of the grantee’s total allocation, and (2) as a percent of total expenditures, to provide ETA with information
on the relationship of administrative costs to ongoing program operations.

Our procedures were performed in accordance with standards established by the American Institute of
Certified Public Accountants and Government Auditing Standards, issued by the Comptroller of the
United States. In accordance with these standards, we rendered an independent accountants’ report on
applying the agreed-upon procedures.

Survey Results

Applying the WIA definition of administration to JTPA costs had little effect on the percentage charged to
administrative. As a percentage of total program allocation, only two of the SDA grantees and none of the
INA grantees would have been in compliance

1               Although JTPA funds may be spent during the program year of appropriation and the two succeeding
                years, we reviewed only PY97 funds spent during PY97 (July 1, 1997 through June 30, 1998).




                                                      3
                                     EXECUTIVE SUMMARY


with the proposed administrative guidelines under WIA. As a percentage of total program expenditures,
none of the grantees, SDA or INA, would have been in compliance.

The following chart summarizes our results. For the ten SDAs surveyed, the reclassified administrative
costs averaged 16.38 percent of allocation and 20.61 percent of expenditures. For the INA grantees
surveyed, the reclassified administrative costs averaged 19.64 percent of allocation and 19.90 percent of
expenditures. See Appendix 2 for additional details.




All of the grantees believe that the 10 percent limitation is too prohibitive to operate the WIA program.

Eight of the thirteen grantees, representing 61.5 percent, intend to seek a waiver of the statutory
administrative cost limitation imposed by WIA. Ten of the thirteen grantees, representing 76.9 percent,
intend to change their mode of operations in order to comply with the WIA regulations.

Changes suggested and comments made by the grantees include:

•               Six of the thirteen grantees surveyed recommended increasing the administrative cost limit.
                If this recommendation was applied and the limit was raised to at least 15 percent, six of
                the ten SDA grantees would be in compliance. In addition, during the course of our
                procedures, USDOL officials and INA grantees reached a compromise on the issue of
                administrative costs. USDOL agreed to raise the floor for negotiating allowable
                administrative costs from 10 to 15 percent. With this change, still only one of the three
                INA grantees surveyed would be in compliance.




                                                    4
                          EXECUTIVE SUMMARY




•   Four of the thirteen grantees surveyed recommended that all subcontracted service costs,
    regardless of nature of contract, should be allowable program
    expenses. Applying this recommendation to the SDA grantees surveyed, the
    administrative costs would have been reduced in an approximate range of .10 percent to
    as much as 7.80 percent. Applying this recommendation to the INA grantees resulted in
    no changes to administrative costs.

•   The majority of the grantees surveyed requested assistance implementing the WIA
    regulations in regards to the One-Stop concept and other general operating procedures.
    Further, five of the thirteen grantees surveyed responded that administrative cost limitations
    of other federal agencies were similar to those of WIA.




                                         5
                        AGREED-UPON PROCEDURES AND RESULTS


                                  Objective, Background and Scope

Objective

The project objective was to assist ETA in determining if the definition of administration developed for the
WIA regulations will enable most local programs to comply with the ten percent statutory limitation on
administrative costs.

The Employment and Training Administration (ETA) asked for SDA and INA grantee volunteers to
undergo a survey. The purpose of the survey was to determine what administrative costs would have been
for a particular JTPA program, if the program were operated under the WIA regulations.

Background

The Workforce Investment Act (WIA) program will supersede the Job Training Partnership Act (JTPA)
and become effective July 1, 2000. Several features of WIA, including establishment of one-stop centers,
designation of local areas, and certain program requirements will have an unknown impact on the
administrative cost experience of program operators.

The administrative cost limitation for local areas under WIA is 10 percent, which is a significant reduction
from similar JTPA programs which were allowed to operate at 20 percent. The WIA administrative cost
limitation for Indian and Native Americans (INA) grantees will be established by grant agreement. Under
JTPA, INA grantees were limited to 20 percent. Although WIA administrative cost limitations for INA
grantees will be established by grant agreement, these entities will follow the same definition of
administrative cost applicable to the local areas.

ETA’s interim final rule at 20 CFR Part 652 established cost classification requirements that differ in many
respects from the definition applicable to JTPA programs. These major changes reclassifying administrative
costs to program costs are noted below:

•               Cost of first line supervisor/team leaders of staff that provide services directly to
                participants.

•               Costs of the individuals involved in the tracking and monitoring of WIA program,
                participant, or performance requirements; or for collecting, storing and disseminating
                information under the core services provisions.

•               Costs of public relations directly related to requesting services for/providing services to/for
                participants.




                                                     6
                        AGREED-UPON PROCEDURES AND RESULTS




•               Costs of tracking and monitoring of WIA program, participant, or performance
                requirements; and collecting, storing and disseminating information under the core services
                provisions

•               Cost of continuous improvement efforts that are program related.

•               Administrative costs associated with fixed price and cost reimbursement contracts for
                “specific goods and services.”

Scope

We surveyed thirteen grantees, representing ten SDAs and three INA grantees, to reclassify JTPA PY
1997 (July 1, 1997 - June 30, 1998) costs using the WIA administrative cost definition. This report will
present the reclassified administrative costs in two ways: (1) as a percent of the grantees’ allocation, since
both JTPA and WIA express the administrative cost limitation in terms of the grantee’s total allocation, and
(2) as a percent of total expenditures, to provide ETA with information on the relationship of administrative
costs to ongoing program operations.

ETA selected program year 1997 for the survey and JTPA Title IIA, Adult Training, and Title IV-A,
Section 401, Native American Programs, for the representative programs.

Our procedures were performed in accordance with standards established by the American Institute of
Certified Public Accountants and Government Auditing Standards, issued by the Comptroller of the
United States. In accordance with these standards, we rendered an independent accountants’ report on
applying the agreed-upon procedures.




                                                     7
                       AGREED-UPON PROCEDURES AND RESULTS


                                            Survey Results

Applying the WIA definition of administration to JTPA costs had little effect on the percentage charged to
administrative. As a percentage of total program allocation, only two of the SDA grantees and none of the
INA grantees would have been in compliance with the proposed administrative guidelines under WIA.

•       As a percentage of total program expenditures, none of the grantees, SDA or INA, would have
        been in compliance.

•       All of the grantees believe that the 10 percent limitation is too prohibitive to operate the WIA
        program.

•       Eight of the thirteen grantees, representing 61.5 percent, intend to seek a waiver of the statutory
        administrative cost limitation imposed by WIA.

•       Ten of the thirteen grantees, representing 76.9 percent, intend to change their mode of operations
        in order to comply with the WIA regulations.

•       Changes suggested and comments made by the grantees (See Appendix 3 for details) include:

        Six of the thirteen grantees surveyed recommended increasing the administrative cost limit.

                If this recommendation was applied and the limit was raised to at least 15 percent, six of
                the ten SDA grantees would be in compliance.

                During the course of our procedures, USDOL officials and INA grantees reached a
                compromise on the issue of administrative costs. USDOL agreed to raise the floor for
                negotiating allowable administrative costs from 10 to 15 percent. With this change, still
                only one of the three INA grantees surveyed would be in compliance.

        Four of the thirteen grantees surveyed recommended that all subcontracted service costs,
        regardless of the nature of the contract, should be allowable program expenses.

                Applying this recommendation to the SDA grantees surveyed, the administrative costs
                would have been reduced in an approximate range of .10 percent to as much as 7.80
                percent. Applying this recommendation to the INA grantees resulted in no changes to
                administrative costs.




                                                    8
                AGREED-UPON PROCEDURES AND RESULTS


The majority of the grantees surveyed requested assistance implementing the WIA regulations in
regards to the One-Stop concept and other general operating procedures.

Five of the thirteen grantees surveyed responded that administrative cost limitations of other federal
agencies were similar to those of WIA.

As noted above, the effects of the regulatory changes were inconsequential. We noted that
depending on the internal operating structure of the survey participant, the regulatory changes could
potentially have even less of an impact. For example, if a recipient did not use subcontractors, one
of the major reclassifications did not come into play. Alternatively, if a recipient utilized
subcontractors to operate all of their programs, the reclassification of the cost of the first-line
supervisors was of no consequence.




                                             9
For each of the grantees selected for the engagement, certain agreed-upon procedures
were performed with the following results:

      Agreed-Upon Procedures Performed                                       Results of Procedures
 Preliminary Work                                             From our review of the regulations, differences were
                                                              noted in the classification of some costs as program
 1.   Review regulations                                      under WIA and administrative under JTPA. These
                                                              differences were isolated and utilized in the
 2.   Obtain and review Job Training Plan                     reclassification of costs procedure explained later.
                                                              During the entrance conference, all of the SDAs and INA
 3.   Arrange and conduct entrance conference with            grantees were very concerned about the proposed
      SDA official to review engagement objectives            administrative cost limitations under the WIA program.

 Reclassification of Costs                                    With the differences noted between program and
                                                              administrative costs as noted in the preliminary work, we
 1.   Interview SDA and INA officials obtaining               went about the task of reclassifying the original
      organizational and financial information regarding      administrative costs to what the administrative costs
      the JTPA Title IIA and Title IVA, Section 401,          would have been under WIA. The areas that brought
      respectively, for the 1997 program year (July 1, 1997   about the largest amount of reclassification from
      through June 30, 1998)                                  administration to program costs were as follows:
                                                              # Salaries and related fringe benefits of the first line
 2.   Applying WIA criteria, information obtained from             supervisors and/or team leaders responsible for
      interview process, and financial information,                those staff who provide program services.
      recalculate the historical administrative costs as if   # Salaries and fringe benefits regarding information
      the program had been operated as a WIA program               systems and data entry costs for:
                                                                   i. Tracking or monitoring of participant and
                                                                        performance information;
                                                                   ii. Employment statistics information, including
                                                                        job listing information, job skills information,
                                                                        and demand occupation information;
                                                                   iii. Performance and program cost information on
                                                                        eligible providers of training services, youth
                                                                        activities, and appropriate education activities
                                                              # The costs of contracts, whether fixed price or cost
                                                                   reimbursement, awarded for the purpose of
                                                                   obtaining specific goods or services.
                                                              Although substantive changes were made in the
                                                              regulations for WIA, the quantitative effect of these
                                                              changes were negligible. Depending upon the internal
                                                              operating structure of the survey participant, the
                                                              regulatory changes could potentially have even less of
                                                              an impact. For example, if a recipient did not use
                                                              subcontractors, one of the major reclassifications did not
                                                              come into play. Alternatively, if a recipient utilized
                                                              subcontractors to operate all of their programs, the
                                                              reclassification of the first line supervisors was of no
                                                              consequence.




                                                          10
     Agreed-Upon Procedures Performed                                  Results of Procedures
Views of SDA Officials                                   We surveyed the grantees for their recommendations on
                                                         matters regarding statutory and/or regulatory language
Interview grantee officials regarding implementation     of the WIA regulations; the treatment of administrative
and administration limitations imposed under the WIA     costs under WIA in comparison to other federal agencies
program.                                                 operated by the grantee and overall recommendations in
                                                         regard to WIA.

                                                         A summary of those responses follow:

                                                              •   Six of the thirteen grantees surveyed
                                                                  recommended increasing the administrative cost
                                                                  limit.

                                                              •   Four of the thirteen grantees surveyed
                                                                  recommended that all subcontracted service
                                                                  costs, regardless of nature of contract, should
                                                                  be allowable program expenses.

                                                              •   Majority of the grantees surveyed requested
                                                                  assistance implementing the WIA regulations in
                                                                  regards to the One-Stop concept and other
                                                                  general operating procedures.

                                                              •   Five of the thirteen grantees surveyed
                                                                  responded that administrative cost limitations
                                                                  of other federal agencies were similar to those
                                                                  of WIA.

                                                              At appendix 1 are the questions posed to grantees
                                                              and their responses.



Statement of Facts                                       The statements of facts were provided to grantees at
                                                         the exit conference and also provided to ETA. A
Prepare statement of facts for grantee official to be    summary of these results are noted at Appendix 1.
provided at exit conference.




                                                        11
                                          APPENDIX 1




Sites visited:

    3 INA Grantees:

    Colorado River Indian Tribes, Parker, Arizona

    Michigan Indian Employment and Training Service, Inc., East Lansing, Michigan

    American Indian Community House, Inc., New York, New York

    10 SDA Grantees:

    PIC Of San Francisco, Inc., San Francisco, California

    Arapahoe/Douglas Works, Aurora, Colorado

    The Workplace, Inc., Bridgeport, Connecticut

    Northeast Georgia Regional Development Center, Athens, Georgia

    Mayors Office of Employment and Training, Chicago, Illinois

    Job Works, Fort Wayne, Indiana

    Lowell Office of Employment and Training, Lowell, Massachuset

    Montana Job Training Partnership, Inc., Helena, Montana

    City Of Charlotte Employment and Training Department, Charlotte, North Carolina

    Northumberland Montour Training Services, Bellefonte, Pennsylvania




                                                12
                            APPENDIX 2




                    SDA GRANTEES
      Administrative Costs As A Percentage of Total Program Allocation
20%
                   18.2%
                                                        16.38%
15%


10%


5%


0%
                   JTPA                                  WIA




                                  13
                             APPENDIX 2




                   INA GRANTEES
      Administrative Costs As A Percentage Of Total Program Allocation
25%

20%               20.16%                             19.64%


15%

10%

5%

0%
                  JTPA                                WIA




                                   14
                                  APPENDIX 2




NOTE:   Administrative costs presented are actual expenditures of the program including JTPA
        expenditures in excess of JTPA administrative funding limitation.




                                        15
                                        APPENDIX 2




                                  INA GRANTEES
                Administrative Costs As A Percentage Of Total Progam Allocation
        25%
                 22.79%        22.79%                             22.28%    21.79%
        20%

        15%                                15.42%
                                                         14.34%

        10%

        5%

        0%
                          AZ                        MI                     NY

                                        JTPA                WIA




NOTE:   Administrative costs presented are actual expenditures of the program including JTPA
        expenditures in excess of JTPA administrative funding limitation.




                                           16
                                          APPENDIX 3




Responses by Survey Participants to Selected Questions

Question:    Do you/your organization have any recommendations in regard to WIA? (i.e.)

             - Increase the administrative cost?

             - Revise other regulations?

             - Other

Response:    Keep the administrative costs limit at 20% and request from SDAs a ‘real’ needs budget
             for administration cost and plan around that amount.

             Adopt the cost classification rules of other federal agencies and departments and eliminate
             the proposed requirement to continue classifying and reporting administrative costs that are
             incurred at each tier below the principal subgrantee for each Local Workforce Investment
             Area.

             Help with understanding the value associated with the separation of the Workforce
             Investment Board and its functions from the actual delivery of services. Provide funds
             necessary to set up these separate administrative and operational systems.

             Require that the State be totally responsible for establishing a list of approved training
             vendors as opposed to local boards being responsible.

             Perform a review of costs that are borderline administrative and program in nature, i.e.
             contractual and monitoring costs.

             Allow an allowance for fees for service revenue.

             Allow Regional Workforce Board’s to provide core and intensive services considering that
             they are operating as a One Stop.

             Provide financial incentives to all required partners of the One Stop.

             Increase the rate to15%.




                                                17
                              APPENDIX 3




Any items directly related to participant support including processing and responding to
inquiries on travel, attendance and childcare payments should be program expenses and
not administrative.

Only the costs of PIC should be considered administrative.

All contracts specifically for participant assistance or training should be allowable program
expenses.

Provide for standard cost classification rules for all SDAs that are to be a part of the One-
Stop System.

USDOL should not have more limiting cost classifications than HHS, HUD, and Wagner-
Peyser.

Provide assistance to Indian and Native American programs with negotiating with the State
and/or it’s Workforce Investment Boards.

Provide clarification of sanctions for not creating working relationships with the state, i.e.
who will be sanctioned - State or Native programs, what parameters and guidelines for the
sanctions, will there be an appeal process.

Discuss in greater details statutory waivers.

Provide concise definitions of administrative costs, including for audit purposes.

Provide training on new definitions and/or policies for SDAs as well as for states.

Revise regulations concerning Voc-Rehab, Welfare to Work, Wagner-Peyser, Carl
Perkins, etc.

Provide implementation funds and more time to implement.

Revise the cost allocation formula to reflect extenuating circumstances, such as high cost
of living and transient regions.

The regulations of other federal workforce development programs should provide for
administrative support of the local governance structure.




                                    18
                                        APPENDIX 3




               All costs at the service provider level should be considered program costs.

               The word ‘subgrantee’ should be removed from the administrative definition.




Question:   Howdo other Federal programs (HUD, HHS, etc) treat administrative costs within
            your organization?

Response:      Headstart program administrative limit is 15% of a $1 million budget.

               No other funding sources require administrative costs to be classified separately nor
               be subject to a maximum cost rate limit.

               One Federal agency defines 15% as administrative cost limitation after excluding
               participant tracking and record-keeping costs.

               Wagner-Peyser - no administrative cost limitation.

               Administrative cost pool plan assigns percentages to various programs proportionately
               based on cost burden of each program.

               Other federal funding streams follow similar patterns in classification.

               Other funding sources have allowable administrative percentages from 6% to 20% to
               100% of funds.

               There should be more consistency among the federal agencies on what is defined as
               an administrative cost.

               Other federally funded programs do not make an administrative cost distinction.

               There is a 27% indirect cost rate with HHS. In addition, several administrative costs
               are direct line items in the budgets.

               Single Point of Contact funds contracted to subgrantees are considered program costs.

               Welfare to Work uses the same definition as JTPA/WIA.




                                               19
                                         APPENDIX 3




Request:    Please state any specific recommendations with suggestions for revising statutory
            or regulatory language regarding cost limitations or clarification of costs.

Response:      Consider each individual grantee’s needs; and consider the barriers of reservation
               programs in regard to the lack of local training facilities.

               Raise the percentage limitation in law and regulations.

               Develop common definitions of costs among the various employment and training
               activities, as well as a common set of expectations in regards to the level of
               administration necessary to meet responsibilities.

               The costs of certain functions might be better classified as program vs. administrative,
               i.e. contract development, vendor review & monitoring, financial costs related to
               participant services.

               There should be some incentive funds built in for good performance.

               Costs should not be prorated - if a staff person performs any program services, all of
               the work performed should be charged to program costs.

               All costs associated with the operation of a One-Stop Center should be classified as
               program costs.

               Provide clear and concise definitions of administrative and program costs.

               Limit the definition of administrative dollars to administrative work within the
               administrative entity.

               Local program operators’ funds should be program dollars.

               Make technical assistance funds available.

               All indirect costs which are defined as administrative costs and identified in a federally
               approved indirect cost plan should be allowed.




                                               20
                            APPENDIX 3




All expenses necessary to cover staff time, travel, and related expenses required to
properly oversee USDOL grant funds are allowable and should be classified as either
‘direct program’, ‘direct administrative’, or ‘central administrative’ costs.

Section 667.210 (administrative cost limits) are somewhat ambiguous in defining
administrative and program costs.

Provide more examples of what is charged to administrative and program costs concerning
program monitoring, MIS, and continuous improvement.

Revise regulations to have only one category of costs.




                                  21
